fs
I

C@OCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-968
CHIKE UZUEGBUNAM, ET AL.,
Petitioners,
v.
STANLEY C. PRECZEWSKI, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), 1 certify that the BRIEF FOR
RESPONDENTS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 12927 words, excluding the parts that are exempted by
. Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of November, 2020.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

omen] Keme Qthoa’ Ondian bt Ohl

My Comm. Exp. September 5, 2023
Affiant

 

Notary Public 40132
